                                                                                           -


                                                                                                                   I
                                                           NATIONAL
                                                            OFFICE OF SCIENCE
                                                                      INSPECTOR
                                                                              FOUNDATION
                                                                                GENERAL

     z
      .                                                         OFFICE OF INVESTIGATIONS

      $jf$@.
       4

           ON D a%\'
                                          MEMORANDUM OF INVESTIGATION

    Case Number: I09030010                                                                       Page 1 of 1
                                                                                                                   1
                                                                                                                   !
               The OIG initiated an investigation based on a referral' that an awardee2 had incurred unallowable   I

4
               expenses for an NSF award.3 Based on reviews of awardee documents, OIG concludes that the
               awardee did not fraudulently misuse funds. The unallowable charges are under review by the
               NSF Cost Audit Analysis & Resolution Branch. Accordingly, this investigation is closed.




           ,




               :
               3
                I
          Sign 1 date

    NSF OIG Form 4 (1 1/02)
                              -             Investigator    L



                                                                             August 28,2009
                                                                                               Date
                                                                                                                       I



                                                                                                                       i
